     THE SRA PROGRAM
COULD PROVIDE MORE BENEFITS

   OIG/99A-03 May 26, 1999
                                           May 26, 1999




MEMORANDUM TO:                 William D. Travers
                               Executive Director for Operations

FROM:                          Thomas J. Barchi
                               Assistant Inspector General for Audits


SUBJECT:                       THE SRA PROGRAM COULD PROVIDE MORE BENEFITS


Attached is the Office of the Inspector General’s (OIG) audit report titled, “The SRA Program Could
Provide More Benefits.” This report reflects the results of OIG’s audit of the Senior Reactor Analyst
program, an important element in the Nuclear Regulatory Commission’s shift to a risk-informed,
performance-based regulatory approach.

On April 21, 1999, we provided a draft of this report to the Deputy Executive Director for Regulatory
Programs (DEDR). On May 17, 1999, the DEDR responded to our draft report and agreed with the
report’s recommendation.

Please contact me on 415-5915 if we can assist you further in this matter.


Attachment: As stated
                                                  The SRA Program Could Provide More Benefits




REPORT SYNOPSIS

        The Nuclear Regulatory Commission (NRC) is shifting to a risk-informed,
        performance-based regulatory approach. One important aspect of this transition is
        the Senior Reactor Analyst (SRA) program which is comprised of a core of
        individuals in headquarters and regional offices that NRC has dedicated to
        performing risk-informed related activities. SRAs contribute to NRC’s mission by
        analyzing events and providing risk assessments in important areas such as
        enforcement and inspection. SRAs add value to agency operations by providing
        NRC staff with better risk insights. The Office of the Inspector General found that
        NRC can further enhance the SRA program to attain more benefits by revisiting SRA
        program objectives. NRC should ensure the objectives are properly integrated into
        the agency’s regulatory approaches and provide greater headquarters focus so that
        the best SRA practices are identified and used consistently.




        OIG/99A-03                                                                     Page i
                                                                      The SRA Program Could Provide More Benefits



TABLE OF CONTENTS


        REPORT SYNOPSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                i

        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                   NRC NEEDS TO REVISIT SRA PROGRAM OBJECTIVES . . . . . . . . . . . . . . . . . 3

                   GUIDANCE NEEDED TO FOCUS SRA ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . 4

        CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

        OIG COMMENTS ON AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


        APPENDICES

                  I           Objective, Scope, And Methodology

                 II           Agency Response to Draft Report

                 III          NRC Organizational Chart

                IV            Major Contributors to this Report

                 V            Glossary: Office of the Inspector General Products




        OIG/99A-03
                                                         The SRA Program Could Provide More Benefits



INTRODUCTION

         Since the early 1980s, the Nuclear Regulatory Commission (NRC) has considered
         approaches to introduce risk-informed, performance-based philosophies to its
         regulatory decision-making processes. A risk-informed approach represents a
         philosophy whereby risk insights are considered, together with other factors, to
         better focus NRC and licensee attention on issues commensurate with their
         importance to public health and safety. A performance-based regulatory approach
         establishes performance and results as the primary basis for decision-making. In
         the broadest sense, the outcome of a performance-based approach to regulatory
         oversight will be to focus more attention and NRC resources on those licensees
         whose performance is declining or less than satisfactory.

         One initiative to introduce risk-informed approaches is NRC’s effort to train Senior
         Reactor Analysts (SRAs) in the use of probabilistic risk assessment (PRA).(1) The
         SRA program is comprised of a core of individuals that the NRC has dedicated to
         performing risk-informed activities. The objective of our review was to determine
         whether SRAs could be more effective in providing NRC staff with better insights on
         safety and risk issues. See Appendix I for more details on our objective, scope, and
         methodology.

    BACKGROUND

         In July 1994, NRC staff informed the Commission(2) of a proposed training program
         for SRAs. The proposal suggested that the SRA position would be a possible career
         path for Senior Resident Inspectors and a way to implement PRA methodology in
         inspection activities.

         SRAs are expected to complete a 12 to 18 month qualification program incorporating
         PRA training and rotational details. In addition, each SRA is required to become
         qualified in both boiling water reactor and pressurized water reactor technology, and
         to maintain the qualifications through participation in refresher training. SRAs are
         required to complete two rotational details, ranging from 4 to 6 months, to obtain
         experience in the application of PRA techniques and familiarize themselves with
         individual plant examinations. NRC certified the first SRAs in the summer of 1997.



    1
         PRA is an analytical process that estimates the potential risk to public health and safety of
         different plant operating conditions using the operational and maintenance practices of a
         plant.
    2
         SECY-94-181, dated July 8, 1994, “Implementation of Changes to the Resident Inspector
         Program Resulting from a Staff Study of the Program.”

         OIG/99A-03                                                                             Page 1
The SRA Program Could Provide More Benefits



                Currently there are eight certified SRAs and two SRAs-in-training who are expected
                to be certified by June 1999. Two SRAs are assigned to each regional office and
                two assigned to headquarters. Regional office SRAs are an important resource in
                implementing risk-informed, performance-based regulations because they are
                among the most knowledgeable of regional office staff with expertise in risk analysis.
                They are responsible for conducting risk evaluations of nuclear power plant events
                and determining the impact of plant operations on safety risk. SRAs are also active
                in areas such as reviewing NRC inspection reports to determine weaknesses in
                licensee performance as related to risk significance, determining whether plant
                safety systems perform as designed, and providing risk insights to regional office
                staff regarding proposed escalated enforcement actions. Regional office SRAs are
                assigned to the Division of Reactor Safety.

                The two SRAs in headquarters work in different branches of the Office of Nuclear
                Reactor Regulation (NRR) and provide support to SRAs in the regions. For
                example, headquarter’s SRAs may: work with other PRA experts in NRR to develop
                risk information; act as facilitators on technical issues during bi-weekly conference
                calls; provide information about the program on the SRA Internet home page; and,
                when requested, offer insights to enforcement actions proposed by regional office
                staff. The cost of the SRA program in fiscal year 1998 was approximately $900,000.

                The Office of the Inspector General (OIG) recognizes the importance of NRC’s risk-
                informed initiatives and has made several suggestions to enhance their
                implementation. For example, in October 1996, OIG issued a Special Evaluation
                Report(3) that concluded the agency needed to define what a performance-based
                system is, and how it will affect the citing of violations and use of enforcement
                actions. To do this, OIG suggested that NRC develop a comprehensive, integrated
                strategy for how its risk-informed, performance-based efforts will be accomplished.
                The report also suggested that this strategy should include a means for measuring
                progress towards meeting the objectives of that strategy.

                In addition, the U.S. General Accounting Office (GAO) has reviewed NRC’s risk-
                informed initiatives and recently testified before a Senate Subcommittee(4) on the
                need for NRC to develop a risk-informed safety approach. In the past, GAO
                identified several improvements needed for NRC to move toward a risk-informed
                regulatory approach, such as a comprehensive strategic plan with objectives, time
                lines, and performance measures. GAO also expressed concern that NRC’s


        3
                “Better Definition and Planning Needed to Guide NRC’s Transition to a Risk-Informed,
                Performance-Based Regulatory System,” OIG/96E-18, dated October 4, 1996.
        4
                February 4, 1999, GAO testimony before the Senate Subcommittee on Clean Air,
                Wetlands, Private Property, and Nuclear Safety, GAO/T-RCED-99-71.

                OIG/99A-03                                                                             Page 2
                                                        The SRA Program Could Provide More Benefits



           assessment and enforcement processes are not consistently applied across the
           industry. GAO found this was due to the lack of specific enforcement criteria, the
           subjective nature of NRC’s enforcement process, and confusion among some NRC
           managers about their role in the plant assessment process. NRC and industry
           representatives are currently working to revise regulatory programs to address these
           concerns.

           The Commission recently released a “White Paper”(5) which defined the terms and
           expectations for risk-informed, performance-based regulation. This paper and the
           SRA program are important elements that NRC is using to implement risk-informed,
           performance-based initiatives.

FINDINGS

           OIG found that SRAs have provided beneficial risk insights to the agency. For
           example, SRAs provide valuable insight in planning inspections, analyzing the safety
           significance of plant events, and assessing the safety significance of violations
           during enforcement panels. In addition, during major plant operations, such as
           refueling outages, SRAs are available to help NRC staff focus attention on the areas
           of most risk significance.

           However, SRAs could provide more benefit to the agency. To do so, NRC needs to
           revisit the SRA program objectives to ensure they are properly integrated into the
           agency’s regulatory approaches, and provide a greater headquarters focus to identify
           best practices and ensure regional office SRAs use them consistently.

    NRC NEEDS TO REVISIT SRA PROGRAM OBJECTIVES

           NRC staff told us that when the SRA program was established, its objectives were
           to create a career path for growth beyond the Senior Reactor Inspector position, and
           provide risk insights to NRC staff through better risk-informed training. Agency staff
           told us they anticipated this training would help instill better risk insights throughout
           the agency. The staff also stated that although the program objectives are not
           described in one document, they can be derived by reviewing various documents,
           such as the SRA position description, regional office guidance that addresses SRAs
           and risk insight use, and the NRC Inspection Manual.

           According to NRC officials, the SRA program is still evolving and its role is reflective
           of the agency’s move toward developing new risk-informed perspectives. As a


    5
           Staff Requirements Memorandum dated February 24, 1999, SECY-98-144, “White Paper
           on Risk-Informed and Performance-Based Regulation.”

           OIG/99A-03                                                                        Page 3
The SRA Program Could Provide More Benefits



                result, SRAs help identify new ways to provide risk insights, as well as new areas
                for SRA involvement. SRAs currently provide support to other NRC programs, such
                as conducting reviews of NRC inspection reports or licensee event reports for the
                inspection program, or providing risk assessments of regulatory violations to assist
                in establishing severity levels for the enforcement program. SRAs are also available
                to support other functions to meet the risk information needs of agency staff.

                In response to the requirements of the Government Performance and Results Act
                of 1993 and other changes in the external environment, NRC launched several
                initiatives to improve the agency’s effectiveness and efficiency. As part of this effort,
                NRC contracted with the Arthur Andersen company in July 1998 to (1) provide a
                high-level assessment of NRC’s current processes for planning, budgeting,
                conducting program assessments, and monitoring and measuring performance, and
                (2) assist with implementing a top-down assessment of NRR’s programs and
                activities, with the objective of increasing organizational effectiveness and efficiency.
                In March 1999, Arthur Andersen reported that NRC programs “are not effectively
                integrated across offices or programs.” We believe this conclusion is applicable to
                the SRA program.

                The SRA program is maturing and an important element in helping the agency move
                forward in implementing more risk-informed, performance-based regulatory
                approaches. Therefore, we believe that now is an appropriate time for NRC to revisit
                the objectives of the SRA program to ensure they are properly integrated into NRR’s
                new regulatory approaches. By taking this action, the SRA program should provide
                even more benefit to the agency.

        GUIDANCE NEEDED TO FOCUS SRA ACTIVITIES

                While SRAs are providing regional staff with risk insights in various important areas
                such as enforcement and inspection, guidance is needed in directing SRA activities
                and ensuring they use best practices consistently. Currently, the regional SRAs are
                functioning in a decentralized mode and, as a result, there is a potential for the best
                practices between regions to go unnoticed.

                The delegation of SRA program management to Regional Administrators has
                resulted in a variety of approaches that SRAs use to provide risk insights. For
                example, OIG found that SRAs in one regional office are installing the simplified plant
                analysis of risk (SPAR) model on resident inspectors’ computers to help the
                inspectors develop and analyze risk information pertaining to their plants. However,
                staff in other regional offices told us they do not favor using computer models for this
                purpose. This is because resident inspectors generally are not aware of the model
                limitations and do not have the technical skills and knowledge to use them
                effectively. Instead of using the SPAR model, SRAs in some regions prefer to use

                OIG/99A-03                                                                        Page 4
                                                   The SRA Program Could Provide More Benefits



        computer models developed by licensees for each plant.

        We also found that regional offices rely on SRAs for a variety of uses. For example,
        staff in one regional office told us that SRAs spend about one-third of their time
        conducting inspections, whereas SRAs in other regions seldom conduct
        inspections. Staff voiced varied opinions regarding the use of SRAs to conduct
        inspections. Some SRAs stated that they believe it is beneficial to be closely
        involved in the inspection process because it helps sharpen their inspection skills
        and assists in establishing a close relationship between resident inspectors and
        licensees. In contrast, other NRC staff believe SRAs should review the inspection
        report executive summaries and findings, and provide risk insight assessments.


CONCLUSIONS

        SRAs have provided beneficial insights as NRC moves ahead with risk-informed,
        performance-based regulatory approaches. However, OIG found the program may
        not be achieving its full potential for several important reasons. Since NRC and SRA
        staff are moving forward in developing and applying risk-informed, performance-
        based perspectives, OIG believes now is the appropriate time for the agency to
        revisit the objectives of the SRA program to ensure it is properly integrated into
        NRR’s implementation of these regulatory approaches. In addition, headquarters
        managers need to provide better focus and guidance to ensure SRAs employ best
        practices consistently. With refined program objectives and focused guidance, OIG
        believes SRAs can provide even greater benefits and insight into NRC’s new
        regulatory initiatives.


RECOMMENDATIONS

        To guide in greater implementation of risk-informed approaches and take full
        advantage of SRAs, we recommend that the Executive Director for Operations:

        (1)     Revisit the goals and objectives for the SRA program to ensure they are
                properly updated and integrated into NRR’s implementation of risk-informed,
                performance-based regulatory approaches.

        (2)     Provide better program focus and guidance to ensure that the best SRA
                practices are identified and used consistently.

OIG COMMENTS ON AGENCY RESPONSE

        On May 17, 1999, the Deputy Executive Director for Regulatory Programs stated that
        he agrees with the findings and recommendations of this report. He also noted that

        OIG/99A-03                                                                      Page 5
The SRA Program Could Provide More Benefits



                although the term “program” has sometimes been used when describing the
                activities of SRAs, more precisely the SRAs are simply one of many specialists
                whose function is to help implement effective reactor inspection, assessment, and
                enforcement programs. He recommended that the use of the term “SRA program”
                reflect either SRA positions or SRA activities, as appropriate. His comments are
                contained in Appendix II. We have incorporated editorial changes in our final report
                where appropriate.

                Given the important role that Senior Reactor Analysts play in providing risk insights
                and participating in risk-informed, performance-based regulatory activities, we plan
                to closely monitor the agency’s progress in implementing our recommendations.




                OIG/99A-03                                                                     Page 6
                                                                                   Appendix I
                                                   The SRA Program Could Provide More Benefits



OBJECTIVE, SCOPE, AND METHODOLOGY

        The objective of this audit was to determine if Senior Reactor Analysts (SRAs) could
        be more effective in providing the Nuclear Regulatory Commission (NRC) staff with
        better insights on safety and risk issues.

        To accomplish our objective we interviewed NRC staff, managers and SRAs at
        headquarters and in the regional offices. To gain further perspectives, we
        interviewed NRC staff at two nuclear power plants in Region I. We also reviewed
        NRC’s management controls and various program planning documents, including
        background information, current regional office guidance, and examples of SRA risk
        analyses.

        This audit was conducted in accordance with generally accepted Government
        auditing standards between November 1998 and March 1999.




        OIG/99A-03                                                                  Page 1 of 1
                                             Appendix II
             The SRA Program Could Provide More Benefits




OIG/99A-03                                    Page 1 of 2
Appendix II
The SRA Program Could Provide More Benefits




                OIG/99A-03                    Page 2 of 2
                                                        Appendix III
                         The SRA Program Could Provide More Benefits



NRC ORGANIZATION CHART




        OIG/99A-03                                        Page 1 of 1
                                                               Appendix IV
                                The SRA Program Could Provide More Benefits




MAJOR CONTRIBUTORS TO THIS REPORT


        William D. McDowell
        Team Leader


        George T. Pourchot
        Audit Manager


        David K. Horn
        Management Analyst




        OIG/99A-03                                               Page 1 of 1
                                                                                           Appendix V
                                                            The SRA Program Could Provide More Benefits



              GLOSSARY: OFFICE OF THE INSPECTOR GENERAL PRODUCTS

            INVESTIGATIVE
1.   INVESTIGATIVE REPORT - WHITE COVER
     An Investigative Report documents pertinent facts of a case and describes available evidence
     relevant to allegations against individuals, including aspects of an allegation not substantiated.
     Investigative reports do not recommend disciplinary action against individual employees.
     Investigative reports are sensitive documents and contain information subject to the Privacy Act
     restrictions. Reports are given to officials and managers who have a need to know in order to
     properly determine whether administrative action is warranted. The agency is expected to advise
     the OIG within 90 days of receiving the investigative report as to what disciplinary or other action
     has been taken in response to investigative report findings.

2.   EVENT INQUIRY - GREEN COVER
     The Event Inquiry is an investigative product that documents the examination of events or agency
     actions that do not focus specifically on individual misconduct. These reports identify institutional
     weaknesses that led to or allowed a problem to occur. The agency is requested to advise the OIG
     of managerial initiatives taken in response to issues identified in these reports but tracking its
     recommendations is not required.

3.   MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
     MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of
     problems and to avoid similar issues in the future. Agency tracking of recommendations is not
     required.

            AUDIT

4.   AUDIT REPORT - BLUE COVER
     An Audit Report is the documentation of the review, recommendations, and findings resulting from
     an objective assessment of a program, function, or activity. Audits follow a defined procedure that
     allows for agency review and comment on draft audit reports. The audit results are also reported
     in the OIG's "Semiannual Report" to the Congress. Tracking of audit report recommendations and
     agency response is required.

5.   SPECIAL EVALUATION REPORT - BURGUNDY COVER
     A Special Evaluation Report documents the results of short-term, limited assessments. It
     provides an initial, quick response to a question or issue, and data to determine whether an in-
     depth independent audit should be planned. Agency tracking of recommendations is not required.

            REGULATORY

6.   REGULATORY COMMENTARY - BROWN COVER
     Regulatory Commentary is the review of existing and proposed legislation, regulations, and
     policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in
     programs and operations. Commentaries cite the IG Act as authority for the review, state the
     specific law, regulation or policy examined, pertinent background information considered and
     identifies OIG concerns, observations, and objections. Significant observations regarding action
     or inaction by the agency are reported in the OIG Semiannual Report to Congress. Each report
     indicates whether a response is required.



                OIG/99A-03                                                                   Page 1 of 1
